<html>
<title> - REFUGEES: SEEKING SOLUTIONS TO A GLOBAL CONCERN</title>
<body><pre>[Senate Hearing 108-686]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-686

            REFUGEES: SEEKING SOLUTIONS TO A GLOBAL CONCERN

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON IMMIGRATION, BORDER SECURITY AND CITIZENSHIP

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 21, 2004

                               __________

                          Serial No. J-108-97

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
96-611                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Immigration, Border Security and Citizenship

                   SAXBY CHAMBLISS, Georgia, Chairman
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     PATRICK J. LEAHY, Vermont
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
LARRY E. CRAIG, Idaho                RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
                  Joe Jacquot, Majority Chief Counsel
                  James Flug, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Chambliss, Hon. Saxby, a U.S. Senator from the State of Georgia..     1
    prepared statement...........................................    39
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    48
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     2
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    71

                               WITNESSES

Aguirre, Eduardo, Jr., Director, Citizenship and Immigration 
  Services, Department of Homeland Security, Washington, D.C.....     3
Dewey, Arthur E., Assistant Secretary, Population, Refugees and 
  Migration, Department of State, Washington, D.C................     5
Franken, Mark, Chair, Refugee Council, USA, Washington, D.C......    15
Kuck, Charles H., Adjunct Professor of Law, University of Georgia 
  School of Law, and Partner, Weathersby, Howard and Kuck, LLC, 
  Atlanta, Georgia...............................................    13
Limon, Lavinia, Executive Director, Committee for Refugees, 
  Washington, D.C................................................    16

                       SUBMISSIONS FOR THE RECORD

Adler, Alan, Executive Director, Friends of Falun Gong USA, 
  Tenafly, New Jersey, statement.................................    25
Aguirre, Eduardo, Jr., Director, Citizenship and Immigration 
  Services, Department of Homeland Security, Washington, D.C., 
  prepared statement.............................................    30
Bacon, Kenneth J., President, Refugees International, statement..    36
Dewey, Arthur E., Assistant Secretary, Population, Refugees and 
  Migration, Department of State, Washington, D.C., prepared 
  statement......................................................    41
Franken, Mark, Chair, Refugee Council, USA, Washington, D.C., 
  prepared statement.............................................    49
Kuck, Charles H., Adjunct Professor of Law, University of Georgia 
  School of Law, and Partner, Weathersby, Howard and Kuck, LLC, 
  Atlanta, Georgia, prepared statement...........................    59
Limon, Lavinia, Executive Director, Committee for Refugees, 
  Washington, D.C., prepared statement and attachment............    73
Stein, Daniel A., President, Federation for American Immigration, 
  Washington, D.C., letter.......................................    82

 
            REFUGEES: SEEKING SOLUTIONS TO A GLOBAL CONCERN

                              ----------                              


                      TUESDAY, SEPTEMBER 21, 2004

                              United States Senate,
                               Subcommittee on Immigration,
                            Border Security and Citizenship
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Saxby 
Chambliss, Chairman of the Subcommittee, presiding.
    Present: Senators Chambliss and Kennedy.

OPENING STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM 
                      THE STATE OF GEORGIA

    Chairman Chambliss. The Subcommittee will come to order. I 
thank our witnesses for being here today to talk about a very 
important issue, and that is the number of refugees around the 
world and what the United States is doing to resettle them here 
or to seek other viable solutions to their displacement.
    According to the United States High Commissioner for 
Refugees, there were about 9.7 million refugees worldwide at 
the end of 2003, down from 10.5 million at the end of 2002. The 
U.S. Committee for Refugees' World Refugee Survey estimates 
that of the world's refugee population, more than 7 million 
refugees have been restricted to camps for 10 years or more.
    While the overall decrease in the world's refugee 
population is promising, the numbers remain staggering. The 
United States has long been a world leader in providing 
permanent resettlement to refugees around the world. In fact, 
it is U.S. policy to admit half the refugees identified by the 
United Nations High Commissioner for Refugees each year.
    For fiscal year 2004, President Bush authorized the 
resettlement of 70,000 refugees to the United States. And 
according to the State Department, we are on track to admit 
just over 50,000 by the end of the fiscal year. As many of you 
know, after September 11, 2001, security concerns resulted in a 
number of changes to our refugee program and the U.S. admitted 
fewer than 30,000 refugees for fiscal years 2002 and 2003. The 
numbers for this fiscal year reflect the hard work of the 
administration and all of those involved, and I would like to 
commend them for this achievement.
    Despite all the work the U.S. has done to offer 
resettlement to some, the worldwide refugee population remains 
a vast concern. I hope today's hearing can shed light on what 
the United States is doing bilaterally or multilaterally to 
encourage other nations to increase their efforts to resettle 
refugees.
    I was surprised to learn that the United States 
historically resettles half of all the refugees that get 
resettled in the world, leaving the rest of the world combined 
to resettle the other half. Of course, I realize that permanent 
resettlement is not the best option for every refugee, and I 
believe we should look at creative, new solutions to deal with 
refugees within the countries to which they first flee.
    Our witnesses today bring a depth of knowledge and 
experience on the issue of refugee policy. Secretary Dewey 
serves as Deputy Assistant Secretary for the Bureau of 
Population, Refugees and Migration in the State Department, and 
previously served as the United Nations Deputy High 
Commissioner for Refugees. Eduardo Aguirre is the Director of 
Citizenship and Immigration Services at the Department of 
Homeland Security, and as a former refugee himself has a unique 
personal experience to bring to this discussion.
    I know the issue of refugees is one that my colleague, 
Senator Kennedy, is very passionate about, and I would like to 
commend him for his good work on this issue for a number of 
years. I would have to say that he has certainly enlightened me 
to this issue. Because of his passion and his commitment to 
this issue, this hearing has been brought about today.
    I would like at this time to turn it over to Senator 
Kennedy for any comments he would like to make.

  OPENING STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR 
                FROM THE STATE OF MASSACHUSETTS

    Senator Kennedy. Thank you very much, Chairman Chambliss. I 
want to thank you for holding these hearings, and also for our 
recent meeting with the Secretary of State to have a chance to 
talk with the administration about the general challenges of 
refugees, and also about the administration's policy on the 
admission of refugees.
    The provision which mandates the meeting with the Secretary 
of State was put in by our good friend and former Chairman of 
the Subcommittee, Al Simpson, with my support. It has been 
adhered by Secretaries of State over a period of years and it 
does give a highlight to both the problems of the refugees and 
also to policy. We have benefited from this meeting. We thank 
our two witnesses who attended those meetings with the 
Secretary, and we certainly commend the administration for the 
progress that we have made over the period of this last year.
    We thank you very much, Mr. Chairman, for your kind words 
and for your attention to this issue and the leadership you are 
providing.
    Refugees are a global concern. As the late refugee and 
human rights scholar Arthur Helton said, ``Every refugee is a 
story in some sense. They are a physical, flesh-and-blood 
manifestation of the ways in which people cannot live together 
and the failure of governance and international relations.''
    Those words are true today. From the war in the Middle East 
to the political upheaval in Haiti, to starvation in North 
Korea, to genocide in Sudan, war is front-page news, but 
refugees seldom dominate the headlines. The troubles of our 
time are exacting a heavy toll on people fleeing from conflict 
and oppression. Throughout the world, people are on the move, 
and more and more refugees are silent witnesses to the 
cruelties that stain our age.
    America has a proud history as a haven for refugees, and we 
must continue to live up to it. since the end of World War II, 
refugee assistance has been a conspicuous aspect of our 
leadership in the world. No other nation has made the 
political, financial and moral commitment that the United 
States has made to protecting the persecuted from harm.
    In light of the vast refugee population and the enormous 
humanitarian need, the United States must continue to support 
refugee policies, and other industrial nations must do a good 
deal more as well. By maintaining a generous refugee program, 
the United States sets an example that other nations are more 
likely to follow.
    While we try to find durable solutions for the world's 
refugees, we also need to do more to improve their daily lives. 
Today, as the Chairman pointed out, over 7 million refugees are 
warehoused, confined and deprived of their basic rights under 
the Refugee Convention, including the right to work, to travel, 
to have an education. In the most serious cases, they are 
confined in refugees camps for 10 years or more and have no 
hope of returning to normal lives.
    Especially in the post-9/11 world, we cannot let refugee 
youth waste years of their lives in harsh camps. If we don't 
provide them with an opportunity to receive an education and 
earn a living, some of them may be susceptible to influence by 
terrorist groups who want to do us harm.
    The State Department and the Department of Homeland 
Security have made significant progress in the last year to 
increase the number of refugees admitted to the United States. 
We must continue this progress and restore refugee admissions 
to a generous level. I also commend the United Nations High 
Commissioner for Refugees and the countless refugee 
humanitarian organizations for their extraordinary commitment 
in resolving these problems.
    I look forward to hearing from our witnesses, particularly 
in the area of funding for migration and refugee assistance 
accounts, solutions for long-term refugees and issues relating 
to asylum.
    Thank you very much, Mr. Chairman. I join you in welcoming 
our witnesses.
    Chairman Chambliss. Thank you.
    Gentlemen, we are pleased to have you back with us today. 
We look forward to your testimony and to dialoguing with you 
with a few questions.
    Mr. Aguirre, we will start with you.

 STATEMENT OF EDUARDO AGUIRRE, JR., DIRECTOR, U.S. CITIZENSHIP 
  AND IMMIGRATION SERVICES, DEPARTMENT OF HOMELAND SECURITY, 
                        WASHINGTON, D.C.

    Mr. Aguirre. Thank you, Chairman Chambliss and Ranking 
Member Kennedy. I am again honored to have this opportunity, 
alongside my colleague, Assistant Secretary Dewey, to discuss 
the President's proposal for refugee admissions in fiscal year 
2005 and the role of United States Citizenship and Immigration 
Services, USCIS, in the United States refugee program.
    As you have heard me say previously in this very chamber, 
refugees issues hold a special place in my heart. I know what 
it is like to be a refugee because, in fact, I was one. Forty-2 
years ago, I came to this land of freedom and opportunity as a 
15-year-old unaccompanied minor from Cuba. I arrived without 
family or money and no working knowledge of the English 
language.
    I was welcomed and cared for by charitable organizations 
that provided support and guidance to me as I began my new life 
in the United States. I would like to again offer my personal 
thanks to those organizations and to those that continue to 
provide a warm welcome to refugees arriving today.
    I followed in the footsteps of millions of others who have 
come to America from other countries in search of freedom, in 
search of opportunity and in search of a better life. I myself 
found all three, for which I am grateful beyond words.
    Having realized my version of the American dream, it is 
poignantly gratifying for me to lead an organization that plays 
a critical role in offering a new home and a brighter future to 
individuals who have fled persecution.
    Some may find it remarkable that as an immigrant, I would 
be in charge of United States immigration services. Instead of 
remarkable, I think it simply underscores the fact that 
naturalized citizens in the United States are not second-class 
citizens. Native-born or naturalized, as Americans we shoulder 
the same rights and responsibilities.
    I share Assistant Secretary Dewey's pleasure in being able 
to report good news to you today. After 2 years of low numbers 
of refugee arrivals, admissions in fiscal year 2004 will exceed 
the allocated level of 50,000. This year's admission of the 
allocated levels and some of the reserve reflects the hard 
work, adaptability and commitment of governmental, non-
governmental and international organizations, all partners in 
the refugee program.
    This past year, USCIS deployed nearly 140 temporary duty 
officers on 60-day assignments overseas to supplement our 
existing refugee adjudicators who are permanently stationed 
abroad. Our officers conducted refugee status interviews of 
over 70,000 individuals in nearly 50 different locations for 
applicants from at least60 nations.
    Two new programs that have been noteworthy in this year are 
focusing on the resettlement of the Meshketian Turks in Russia 
and the Lao Hmong in Thailand. Among other indicators of this 
successful year, 2004 admissions reflect the program's 
increased responsiveness to vulnerable refugees in need of 
resettlement.
    While 10 years ago fewer than 6,000 African refugees were 
admitted to the United States, this year more than 28,000 
African refugees will be admitted. Our officers conducted 
eligibility interviews in 18 different African countries, often 
processing in remote and difficult locations.
    It is indeed a positive development that the refugee 
program has become more diverse, with small at-risk populations 
processed in more locations. This shift in focus, however, 
presents new challenges, perhaps the most difficult being the 
need to balance national security concerns with humanitarian 
objectives.
    Although the use of temporary duty officers has allowed us, 
USCIS, to meet our refugee processing responsibilities to this 
date, the complexity of refugee adjudications in the wake of 
September 11 calls for officers with sustained overseas 
processing experience who have developed regional expertise.
    I therefore am pleased to announce that we have begun the 
work necessary for the hiring and deployment of a dedicated 
core of refugee officers in fiscal year 2005. This new cadre of 
specially trained officers, funded through the examinations fee 
account, will improve the quality of refugee adjudications, 
enhance our ability to combat fraud and screen for national 
security risks, as well as fulfill the humanitarian objectives 
of the refugee program.
    One of the missions of USCIS is to restore public 
confidence in the integrity of America's immigration services; 
that is, to provide the right benefit to the right person in 
the right amount of time, while preventing the wrong applicant 
from accessing our benefits.
    The high priority that we place upon maintaining the 
integrity of our program reaches throughout the organization. 
Our efforts to verify the claimed family relationships of all 
refugee applicants are continuing and have resulted in the 
identification of numerous cases involving identity fraud and 
relationship misrepresentation. By adopting a strong, 
unequivocal position on fraud, we have been able to ensure that 
U.S. protection is extended to legitimate refugee applicants, 
while not compromising the security of our Nation.
    In closing, I would like to assure you that along with my 
personal commitment to the mission of the U.S. refugee program, 
you also have the commitment of the Department of Homeland 
Security as well. One-and-a-half years since its creation, 
refugee issues are a visible, high and important priority 
within the Department. My hope is that 1 day freedom and 
liberty will be enjoyed by all people, and that there will be 
no longer individuals who are forced to flee their homeland due 
to war or fear of their lives or for their political or 
religious beliefs. In the meanwhile, we will be here to do our 
job.
    I will be pleased to respond to any questions or comments 
after Secretary Dewey.
    [The prepared statement of Mr. Aguirre appears as a 
submission for the record.]
    Chairman Chambliss. Thank you very much, Mr. Aguirre, and 
your personal situation allows you to bring a very unique 
perspective here. Under your leadership, obviously, good things 
are happening there and you are doing a great service to our 
country as well as your Department. So thank you.
    Mr. Dewey, we are certainly glad to have you here and we 
look forward to hearing from you at this time.

STATEMENT OF ARTHUR E. DEWEY, ASSISTANT SECRETARY, POPULATION, 
 REFUGEES AND MIGRATION, DEPARTMENT OF STATE, WASHINGTON, D.C.

    Mr. Dewey. Thank you very much, Mr. Chairman and Senator 
Kennedy. I appreciate this opportunity to discuss where we are 
and where we are going with the U.S. refugee admissions 
program. I would like to provide a brief summary of my written 
statement and then submit that longer statement for the record.
    Chairman Chambliss. Certainly.
    Mr. Dewey. The Bureau of Population, Refugees and Migration 
is responsible for refugee protection and refugee solutions. 
This year has been a banner year for refugee solutions. The 
return of approximately 300,000 refugees to their homes in 
Africa and nearly 1 million this year on top of about 2.5 
million last year returning to Afghanistan has brought the 
worldwide refugee population down by about 17 percent this year 
alone, and we have a realistic prospect of another 17-percent 
reduction next year if this pattern continues. This pattern, of 
course, is not just a matter of providing the welcome back home 
for our refugees who have left, but also to provide the funding 
for sustainment of these solutions.
    The performance of the U.S. refugee admissions program this 
year has also struck a significant blow for refugee protection. 
Increasingly, we are reaching out to some 60 nationalities in 
46 different locations around the world in our rescue and 
protection effort for those who have no other hope for their 
future.
    At day's end today, we will have admitted over 48,000 
refugees in this fiscal year. Confirmed seats on aircraft will 
bring the total up to over 52,000 refugee admissions by 
September 30. This is an increase of 80 percent over our total 
last year. We will not only have met our allocated refugee 
numbers for 2004, but we will also enter fiscal year 2005 with 
a healthy pipeline of approved cases in the final stages of 
processing.
    This record, I believe, shows that we know what it takes to 
maintain and to grow a healthy refugee admissions program, and 
this despite the major Earth shift when the Cold War ended, a 
major shift for those people fleeing oppression, and also 
despite the daunting requirements after 9/11 to keep our 
borders open for refugees, and at the same time keeping those 
borders secure.
    The team--and this has been an extraordinary team effort 
from the State Department, Homeland Security, Health and Human 
Services, together with our NGO implementing partners and 
advocates--has convincingly demonstrated that the 
administration has the right stuff to grow the admissions 
program as the President directed that it be grown before the 
tragedy of 9/11.
    During and immediately after the Cold War, we had access to 
hundreds of thousands of refugees in two major places--
Southeast Asia and the former Soviet Union. Now, we must seek 
out refugees in much smaller clusters located in 46 different 
and often dangerous places around the world.
    My bureau and Eduardo Aguirre's Bureau of Citizenship and 
Immigration Services in the Department of Homeland Security 
have spent millions of dollars of unexpected and unbudgeted 
dollars to move thousands of refugees to safer locations in 
Africa for processing. After arrival in these new locations, we 
have committed additional funds to harden these facilities to 
permit uninterrupted processing.
    Other security enhancements and streamlining procedures 
such as more stringent name checks have added significantly to 
the new costs of doing admissions work today. These new 
measures are vital both to growing and to keeping the 
admissions program alive, and they are costly. Before 9/11, the 
cost per refugee admitted was about $2,200. This year, the cost 
will be $3,500 per refugee.
    To reach our goals this year, we expanded the concept of 
rescue to include new populations such as the Meshketian Turks 
in Russia. We have also expanded family reunification.
    Senator Kennedy. Mr. Chairman, that is $2,200 and $3,500, 
and that is for how long a period of time? What was the extent 
of the period of time, the months that you used to cover? Or 
don't you do that at all?
    You give it a lump sum?
    Mr. Dewey. These are the costs to the State Department per 
refugee for the fiscal year. That is the cost to--
    Senator Kennedy. I will wait my turn, but I thought you 
used to do it for a period of like 15 months or 24 months, and 
then that was reduced in the last several years to a shorter 
period of time as the total amount was reduced. But I am 
misinformed, am I, or do you just give them a block grant?
    Mr. Dewey. No. The cost after they arrive in the United 
States is up to 90 days that we fund.
    Senator Kennedy. That is what I was interested in. thank 
you.
    Chairman Chambliss. Well, I had a question about that, too. 
The $3,500 you tell me, is that just to get them here?
    Mr. Dewey. That is to get them here and the additional 
costs of the movement to safe places, the hardening of those 
safe places and the reception and placement costs to the NGOs 
who receive them and sponsor them during that first 90 days.
    Chairman Chambliss. Thank you.
    Mr. Dewey. We have worked intensively with the office of 
the UN High Commissioner for Refugees to mainstream 
resettlement and to create in UNHCR a resettlement culture. 
This year, we expect the UNHCR will refer at least 21,500 
individual refugee cases to the United States through this 
initiative.
    Refugee advocates in the NGO community, especially at 
Refugee Council USA and Interaction, played key roles in the 
identification and sponsorship components of the resettlement 
process. Our NGO partners in the United States have helped in 
major ways to streamline sponsorship processes.
    Particularly with your interest, Mr. Chairman, in the 
burden-sharing and getting other countries to do more, this is 
important to us because one of the major reasons we work 
through the United Nations is to get burden-sharing through the 
United Nations. We work very hard in getting financial burden-
sharing for refugee assistance overseas, and it is clear that 
we have to work more through UNHCR to get more burden-sharing 
so that our percentage of the UNHCR referral, now at 54 
percent, can come down to a more reasonable proportion.
    UNHCR's improved ability to identify resettlement cases 
also helps further our mutual goal of increasing the number of 
countries involved in resettling refugees. The rest of the 
world combined takes less than half as many refugees as the 
U.S. does.
    Other states have accepted some 20 to 25,000 refugees for 
resettlement in the past 12 months, as opposed to nearly 53,000 
for the United States. Many European nations state that they 
are contending with large numbers of asylum seekers and are 
unable to voluntarily accept refugees from overseas as well.
    But the U.S. receives asylum seekers, too, and that in no 
way diminishes our commitment to resettle refugees. We will 
continue to work with the UNHCR and other countries to 
encourage the expansion of resettlement as a durable solution 
for refugees in need, and this will be part of the 
transformation of the program going into next year.
    We believe that we have accomplished all of the initiatives 
set forth in last year's report to Congress, with one 
exception, and that is that there is the need to develop 
targeted strategies to improve the protection of unaccompanied 
minors. This will be a key focus for fiscal year 2005.
    The fiscal year 2005 presidential proposal includes several 
program modifications, including revised definition of 
processing priorities; expansion of Priority 3, which is the 
family reunification eligibility; and limited universal in-
country processing authority.
    During fiscal year 2005, we intend to examine possible 
changes to improve and streamline the admissions process 
without compromising national security. We will explore 
additional measures to counter fraud and corruption, and to 
enhance the physical security of particularly vulnerable 
refugees abroad.
    The administration's fiscal year 2005 proposed ceiling of 
70,000 refugees, with 50,000 regionally allocated, reflects the 
President's commitment to a continued sustained recovery and 
growth in our program. However, the per-capita cost of 
resettling each refugee is likely to remain high. There just 
won't be those economies of scale, despite the fact that we are 
bringing in greatly increased numbers.
    In order to be able to admit refugees into the 20,000 
unallocated numbers, we will have to work very hard to identify 
additional refugees in need of resettlement and to reach them, 
access them and process them safely. And we will need to work 
very hard to identify the funding to support them, while 
continuing to meet the critical humanitarian assistance 
requirements that continue to exist around the world. I would 
put in that category the need not to jeopardize or compromise 
the substantial costs of sustaining refugee solutions, such as 
the remarkable solution in Afghanistan.
    Thank you very much, Mr. Chairman and I welcome your 
questions.
    [The prepared statement of Mr. Dewey appears as a 
submission for the record.]
    Chairman Chambliss. Thank you very much, Mr. Secretary. You 
mentioned in your written statement that we have for the record 
that you are reviewing a comprehensive study of the refugee 
program that the State Department has commissioned.
    Does that report make any recommendations for statutory 
changes, and if so what specifically is involved there?
    Mr. Dewey. I am not aware that there are specific statutory 
change recommendations. Our hope has been that we would get 
some ideas as to how to enlarge the eligible pool for our 
consideration through non-statutory means, and this is what we 
are looking at particularly for the refugees in the warehoused 
category that you mentioned.
    Chairman Chambliss. What about the report as far as 
recommending for the issue addressing fraudulent claims or 
cases where individuals are from countries where terrorist 
groups are known to operate?
    Mr. Dewey. This is part of the balance that Eduardo 
mentioned. We realize that if we admit a terrorist, we strike a 
heavy body blow to the entire admissions program. We have had 
some hits to the intelligence base, so we know that it is a 
real risk. It is something we have to be continually vigilant 
about.
    We will continue that, but at the same time being realistic 
and recognizing that there are some approved cases--and I am 
thinking of Iraqi cases in Beirut and other parts of the Middle 
East that have been approved that have kept in limbo--this is 
another warehousing situation that concerns me a great deal and 
we need to saw off on this and get a determination that some of 
those cases that don't appear to have any threat to the 
security of the country--that those cases be brought in.
    Chairman Chambliss. We obviously slowed down our influx of 
refugees following September 11. Did you find any corresponding 
reduction in activity from other countries following September 
11?
    Mr. Dewey. Not really. Their contribution has been so 
pathetically small anyway that there really wasn't, except that 
our proportion before 9/11 was much higher than the proportion 
now, the 54 percent now. I don't think that has had an effect 
on the other countries.
    Chairman Chambliss. Director Aguirre, you mentioned the 
refugee corps on your testimony. Can you explain further how 
these specifically trained officers will do things differently 
than in the past, and what are the risks to the U.S. refugee 
program that these officers will address that have not been 
addressed previously?
    Mr. Aguirre. Mr. Chairman, it is a comprehensive focus that 
we are going to have on dealing with refugees. First of all, we 
are going to hire people that are suitable to this particular 
environment. They are willing to travel to difficult places. 
They are going to have language skills that perhaps are not 
present today throughout our agency. They are also going to 
understand regional nuances that are going to add value to 
their processing of refugees.
    If I could take just a quick second, a refugee almost by 
definition is lacking in many of the documentations that we 
look for with other immigrants. Because they oftentimes fled 
their country with just the clothes on their back, they don't 
bring birth certificates or graduation certificates or any 
number of things we look for to corroborate their story.
    Therefore, the science, if you will, and the art of an 
interview adds a lot of value to our understanding the story of 
the individual. So we need to have good language skills, good 
ability to communicate with them, and at the same time 
understand what are some of the other stories that are being 
told by others so that there is substantiation.
    That is just one of the aspects of what the refugee corps 
will bring to the table. The other aspect, of course, is that 
we will have less disruption in the lives of our existing 
asylum officers who are now being deployed on a temporary basis 
for 60 days at a time. These individuals are going to be able 
to maintain the continuity of their jobs by staying in San 
Francisco or Boston or wherever they may happen to be.
    So all of that, I think, is our effort to deal with this 
changing and shifting population which is the refugee 
population.
    Chairman Chambliss. As a general matter, do you feel that 
the U.S. is less at risk from security concerns or fraud 
concerns by facilitating people coming to our country through 
the current refugee program which pre-screens these 
individuals, compared to people who claim asylum once already 
in the United States?
    Mr. Aguirre. Mr. Chairman, I don't think that there is a 
lesser or greater risk, considering that we are going to put 
all applicants through the same filters of background checks 
and careful scrutiny regardless of whether they come to us as a 
refugee abroad or arrive on our shores seeking asylum.
    At our U.S. Citizenship and Immigration Services, we will 
do all the necessary background checks, whatever is available 
to satisfy ourselves as to the bona fides of the individuals. 
Of course, we are looking for potential terrorists. There is no 
question about that. But we are also looking for potential 
fraud, people that would simply be undermining the integrity of 
the system, and therefore reducing the value to the future 
legitimate immigrants that may come here.
    But from a security standpoint, we are not cutting any 
corners. If anything, we are adding additional layers.
    We are making sure that not only are we doing the 
background checks, but also we are establishing computer 
systems that are going to indicate to us unusual behavior or 
unusual patterns by certain populations, et cetera.
    Chairman Chambliss. Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Secretary Dewey, just to get back to a point that you were 
talking about during your presentation about the costs of the 
refugees, as I understand it, they do reimburse the Department, 
don't they, for their airfare?
    Mr. Dewey. That is right, and the reimbursement record is 
very good.
    Senator Kennedy. The reimbursement record is very good. I 
think that is important to know because when you lay these 
figures out, they are sizable amounts and the commitment that 
they make to reimburse is impressive. I was asking staff about 
what the record was, and I think it is reassuring to know that 
they do. I mean, I think it is important that they do and they 
record shows that they do.
    I imagine it varies in terms of the support of the 
particular individual, or if they are in a family and they are 
going into these different kinds of communities, what it takes 
to get them settled and to get them sort of up and running.
    I mentioned the other day when we met that we had, I think, 
1,000 Bhutanese that came into Massachusetts. All of them have 
been enormously successfully settled, very much involved. I met 
with about 2 or 300 of them once at a very impressive sort of 
church ceremony and they have just been extraordinary citizens. 
I think it is not surprising for people whose ideal has been to 
come to this country and to try and make better do with it.
    But I guess it does vary, doesn't it, about what kind of 
support an individual gets or a family gets to try to get them 
going in the communities. Is that right?
    Mr. Dewey. The per-capita amount for refugees is $800 and 
then the NGO gets a headquarters portion about that. As far as 
each refugee, they get a fixed amount. But the ability to 
integrate depends a lot on the anchor relative or an anchor 
group that has already gone through the drill of getting 
housing, getting language training, and so forth.
    We are finding, for example, with the Somali Bantus, a 
wonderful group from Africa that has survived all kinds of 
persecution and have still come through, they are really 
capable, adept, good managers. They have shown it in the camps 
in Kenya. They had to start from scratch when they came here, 
and I saw how they were starting in Utica, New York. They were 
given a warm welcome by Utica. Utica loves refugees; Utica has 
benefited from refugees.
    The town that was going downhill is now reviving because of 
refugees and Somali Bantus are coming into that welcoming 
atmosphere. So even though they are new and just beginning and 
there are still only a few, they are going to be good citizens 
of Utica.
    Senator Kennedy. Well, that is a good story. In Lowell, 
Massachusetts, is the second highest number of Cambodians 
outside of Phnom Penh, but most of them came into other 
communities across the country and then infiltrated down there 
to Lowell.
    Last year, I believe, or the year before, of our 12 high 
schools, I think 7 of the valedictorians were sons of 
Cambodians. I mean, it is very impressive. They have resettled 
in some of the underserved communities and are doing the job.
    Let me ask you just about--in looking over the figures that 
have been requested next year, $730 million, to get to your 
goal of 70,000 admissions, you still need additional resources. 
Is that right?
    Mr. Dewey. That is correct.
    Senator Kennedy. And that is $80 million more?
    Mr. Dewey. It is approximately $87 million.
    Senator Kennedy. And the Department is going to get behind 
that request and do what it can to try and get it and look for 
support for it.
    Mr. Dewey. They had better.
    Senator Kennedy. I think I heard an affirmative answer on 
that.
    Let me ask, Mr. Aguirre, we have the cap on asylum and it 
is 10,000. As I understand it, we have 140,000 asylees that 
have applied for adjustment of status. So they wait 14 or 15 
years under the current cap. Now, they can work; they can get a 
work permit, but it is difficult to travel, and there is no way 
that they can get on the track for citizenship.
    They have to run through the traps in terms of being 
qualified under asylum, and that is a very vigorous regime, as 
we know. Once they make that, they are still really held back 
in terms of their ability to become full-fledged involved in 
the community and the country.
    I was wondering what your position on that is. Once they 
quality for asylum, should we make it easier for them to be 
able to get the green card and move on the road toward 
citizenship if they qualify?
    Mr. Aguirre. Well, Senator, as you know, the issue of the 
cap here has to do with adjustment, as you indicated, of those 
individuals that are already granted asylum in this country.
    Senator Kennedy. That is right.
    Mr. Aguirre. And indeed it takes probably the better part 
of 12 years for whoever is coming in now to get on that conga 
line, if you will, to get to that cap. I think the cap needs to 
be revised, and I think the Congress and the administration 
would do well to look at it again, making sure that we don't in 
any way dilute the security aspects of things. But I feel that 
the security aspect can be ameliorated from the standpoint that 
these individuals are already here.
    There are differing aspects to the administration's 
position. The position that our Citizenship and Immigration 
Services Bureau would take is more progressive, if you will, 
than those who perhaps are concerned, and rightly so, about the 
enforcement side of this particular aspect. But I think a 
dialogue is very much in place.
    Senator Kennedy. Well, I hope we can continue. I think you 
are right. We are not talking about any loosening in terms of 
the clearances on this; those all have to be conformed with. 
But once they do that, then to sort of hold them back and treat 
them, for 14 to 15 years, separated from their families and the 
rest, is something that we ought to give some thought to.
    Thank you very much, Mr. Chairman.
    Chairman Chambliss. Thank you.
    Senator Kennedy alluded to our meeting with you gentlemen 
and Secretary Powell recently, and that was a very informative 
and very open meeting and we look forward to continuing that 
dialogue.
    I have to tell you you are one of the few Government 
agencies that comes in here asking for more work from Congress, 
and that is good to hear.
    Mr. Aguirre. It is this immigrant thing, you know.
    Chairman Chambliss. There you go. Well, you represent the 
country and your agency well, as I said earlier.
    Mr. Aguirre. Thank you, sir.
    Chairman Chambliss. Gentlemen, thank you very much for your 
work and for being here today.
    Mr. Aguirre. Thank you, sir.
    Chairman Chambliss. Our second panel consists of Mr. 
Charles H. Kuck, Managing Partner of the Immigration Group at 
Weathersby, Howard and Kuck, of Atlanta, Georgia; Mark Franken, 
who is Chair of Refugee Council USA, here in Washington, D.C.; 
and Lavinia Limon, Executive Director, United States Committee 
for Refugees, here in Washington, D.C.
    Again, to the three of you, we appreciate very much you 
being here. We are very appreciative of the great work you do 
and we look forward to hearing your testimony and to dialoguing 
with you this afternoon.
    Mr. Kuck, why don't we start with you? Am I saying that 
right? It is Kuck?

    STATEMENT OF CHARLES H. KUCK, ADJUNCT PROFESSOR OF LAW, 
 UNIVERSITY OF GEORGIA SCHOOL OF LAW, AND PARTNER, WEATHERSBY, 
             HOWARD AND KUCK, LLC, ATLANTA, GEORGIA

    Mr. Kuck. You are.
    Chairman Chambliss. Yes, good.
    Mr. Kuck. Thank you, Senator. I certainly appreciate that.
    Chairman Chambliss. It is a Southern thing.
    Mr. Kuck. It is certainly a Southern thing, and those of us 
that live in the South greatly appreciate bringing that 
attitude up here.
    Chairman Chambliss. Right. Thank you very much for being 
here and we look forward to your testimony.
    Mr. Kuck. Mr. Chairman, I have been asked to briefly 
address the history of the refugee program. To bring into 
context what is happening today, I think it requires a better 
understanding of exactly what has happened in the past so we 
can make better determinations of how we should proceed in the 
future.
    The refugee program as it exists today did not exist from 
the history of the Republic. It is only in the last 55 or so 
years that we actually have an effective and working refugee 
program. Shortly after the end of World
    War II, with the shear volume of international refugees as 
a result of that conflict, the beginning part of the United 
Nations established the Universal Declaration of Human Rights, 
to which the United States was a signatory. Eleanor Roosevelt 
was our representative at that time, and we at that time 
decided that we were going to take in refugees into the United 
States.
    Now, the concept of refugees has existed for quite some 
time, but we as a country had not until that point accepted 
people on the shear fact that they were refugees. So beginning 
in 1948, we began to accept these individuals. In 1951, the 
United Nations Convention on Refugees was signed by the United 
States, along with a number of the other signatories to the 
United Nations Charter.
    The UN Convention on Refugees calls for countries to accept 
individuals who are displaced from their country, but even at 
that time there wasn't a definition of who exactly was a 
refugee. The refugee program over the next several years 
foundered, in that we accepted people who might not have been 
refugees in the context that we would view them today, but were 
clearly individuals that were important for us to accept.
    I will give the court--I am sorry, Your Honor. I spend way 
too much time in court, Mr. Chairman.
    Chairman Chambliss. That is a step up and I don't think we 
ought to go there.
    [Laughter.]
    Mr. Kuck. Thank you, Senator Beginning in the Cold War, 
beginning really in 1952, we realized that the refugee program 
could be a tool for us to use to drive home the point that we 
were the country of freedom, that we were the country that 
others should emulate, that we were the country that people 
should seek to be like.
    We used the refugee program to admit a number of 
individuals from the countries of the former Soviet Union, then 
the USSR, to the United States, and we continued that program 
over the next 30 years, up until the beginning parts of the 
1990's at the end of the Cold War.
    Through various, different aspects of that Cold War, we 
admitted individuals because of the actions of the Soviet 
Union. I call the Senators' attention to Hungary in 1956, when 
the Soviet threatened and, in fact, did invade. We actually 
passed the Hungarian Refugee Act and admitted tens of thousands 
of refugees from Hungary into the United States.
    We did similar things with Cubans. Mr. Aguirre, who was 
here a few moments ago, was a beneficiary of that program, the 
Cuban Refugee Act of 1966. We did the same with the Indochinese 
in 1977.
    But it wasn't until 1980 when this Congress passed the 
Refugee Act of 1980 that we actually formalized the 
requirements of the 1967 Convention with the UN, established a 
definition for refugees and began to admit refugees on the 
basis of generalized concerns as opposed to particular 
geopolitical concerns.
    We created a definition for refugee: those that had a fear 
of persecution based upon one of five different grounds. It 
could be race, religion, their nationality, membership in a 
particular social group, or their political opinion. It is then 
that we began to analyze objectively, so to speak, the 
individual concerns of refugees and whether we as the United 
States would accept them into the United States.
    For a period of the late 1980's, during the Reagan 
administration and the first Bush administration, we admitted 
record numbers of refugees, many years totaling over 120,000 to 
130,000 individuals. Virtually all of them were effectively 
resettled in the United States.
    Many would argue that, today, one of the reasons the Cold 
War was won was because we emboldened people to take a stand in 
their countries, knowing the United States was there behind 
them with the concept of refugees. Many folks that ended up 
becoming refugees are those that took bold stands against their 
own government and were punished for it.
    The refugee program can be today an effective program in 
that regard, creating an emboldening in people to stand up for 
what is right and for what is good and for what is just. If 
they know that the United States is there to back them up, to 
protect them when they are persecuted, I think that they will 
be more emboldened to take that step to increase our security 
in their own homelands.
    After 1980, as this program grew, a subsequent treaty was 
passed called the Convention Against Torture. In 1998, the 
United States became a signatory to the Convention Against 
Torture, in which individuals who were subject to likely 
torture in their home country could also be given refugee 
status apart from and separate from the standards of refugees 
as passed in the Refugee Act of 1980.
    Today, we find ourselves in a very different world than we 
found in 1980, very different geopolitically, different enemies 
and different concerns. The question now becomes how should we 
use the refugee program. Should we continue to use it in the 
way that it was used during the Reagan and first Bush 
administrations as a tool to enhance our security and to send 
our message around the world, a message of hope and freedom? Or 
should we merely use it as a stop-gap, as a measure to plug the 
leaks, kind of the little Dutch boy effect, I call it, plugging 
the holes in the dam when they spring up?
    It is a question that Congress and the President have to 
answer, and they have to answer it to the American people. How 
are we going to use this program? I would hope that Congress 
would effectively consider the very extraordinary power of 
bringing somebody to the United States as a refugee, the 
wonderful effect they have on the communities here, and the 
message that it sends back home that we are here to protect 
you, that we are ultimately and still are the land of freedom 
and opportunity.
    Thank you, Senator.
    [The prepared statement of Mr. Kuck appears as a submission 
for the record.]
    Chairman Chambliss. Thank you very much; very interesting 
comments and we appreciate it.
    Mr. Franken, thank you for being here. We look forward to 
hearing from you.

    STATEMENT OF MARK FRANKEN, CHAIR, REFUGEE COUNCIL, USA, 
                        WASHINGTON, D.C.

    Mr. Franken. Thank you, Mr. Chairman. Today, I am 
representing the Refugee Council USA, which is a coalition of 
NGOs who are committed to the protection of refugees around the 
world and the pursuit of durable solutions for them, including 
resettlement.
    We very much appreciate, Mr. Chambliss, your holding this 
hearing today on what we consider to be a matter of critical 
importance. Mr. Chairman, if my testimony and an accompanying 
report published by the Refugee Council could be inserted into 
the record, I could summarize in 5 minutes three points.
    Chairman Chambliss. Certainly, we will do that by unanimous 
consent, without objection.
    Mr. Franken. Thank you.
    The first point is to acknowledge and express deep 
appreciation to all involved in the remarkable achievements of 
this past year in the refugee admissions program. We are seeing 
nearly an 80-percent increase in admissions this year over 
last, and when you consider such large numbers of refugees in 
the world who have no other hope but the possibility of being 
welcomed here, this is very much welcomed and very much needed.
    To achieve these results this year took extraordinary 
efforts on the part of many in our Government and in the UNHCR 
and in the private sector. In a special way, we wish to 
acknowledge the leadership of Mr. Dewey and Mr. Aguirre and 
their staffs. We also wish to express appreciation to the 
Congress, especially this Subcommittee, for its effort to turn 
the admissions program around.
    The second point relates to the future. As we look ahead, 
the question becomes is this year's achievement sustainable, 
and can our Nation resume and sustain refugee admissions to 
levels comparable to historic levels. We believe the political 
will is there. The American people understand our unique role 
in the world as a beacon of hope and refuge for refugees 
fleeing persecution.
    However, in today's world we need a more dynamic and 
responsive infrastructure for identifying and referring and 
processing refugees in need of resettlement.
    Our written testimony and the interim report that will be 
in the record include a number of specific recommended changes, 
including such things as greater involvement of NGOs; 
augmenting the UNHCR's referral capacity, creating a more 
dynamic outreach capacity. And one particular item here is what 
we refer to as rapid response teams that can go into where 
refugees are and help the State Department identify those in 
need of resettlement, expanding groups of refugees and 
designating them as of special concern to the United States, 
and allowing more refugees who have family members in the 
United States to be referred for consideration for admission. 
This is an item that the Senate has recognized as an important 
element. Our community is committed to working with the 
Government to pursue these and other necessary enhancements to 
the refugee program.
    The third and final point I want to raise relates to the 
resources necessary to carry out a responsive and effective 
refugee admissions program. We are deeply concerned about the 
fiscal 2005 budget proposal which doesn't include enough funds 
to admit even 50,000 refugees, much less the higher levels that 
we propose.
    To fund a more modest admissions program of 70,000, for 
example, without adversely affecting our commitment to overseas 
assistance to refugees will require, in our estimation, an 
additional appropriation above the administration's request of 
$145 million for the State Department.
    Then looking ahead to 2006, we have recommended that the 
administration request $982 million for the State Department's 
admission program, and this would allow the admission of up to 
90,000 refugees.
    In closing, on behalf of the members of Refugee Council 
USA, I again applaud the Congress and the administration for 
their remarkable achievements this year. With collaborative and 
collective efforts in the days and months and years ahead, our 
Nation can remain a beacon of hope and a safe haven for 
refugees whose only hope for a future may lie in our welcoming 
them here.
    Thank you very much.
    [The prepared statement of Mr. Franken appears as a 
submission for the record.]
    Chairman Chambliss. Thank you, Mr. Franken.
    Ms. Limon, we are pleased you are, and thank you for the 
good work you do. We look forward to hearing from you.

STATEMENT OF LAVINIA LIMON, EXECUTIVE DIRECTOR, U.S. COMMITTEE 
                 FOR REFUGEES, WASHINGTON, D.C.

    Ms. Limon. Thank you, Mr. Chairman and Senator Kennedy. 
Thank you for inviting the U.S. Committee for Refugees to 
testify today and for convening this most important hearing.
    Recent events in the Sudan remain us that refugees are the 
human face of war and that escape from terror and search for 
freedom continues today as we speak. I have been working on 
behalf of refugees for almost 30 years, mostly helping to 
resettle refugees here in the United States. But it is clear 
that in the latter part of the 20th century and the beginning 
of the 21st, the search for durable solutions for refugees has 
been a failure for the majority, since resettlement even in the 
best of years has never been available for more than 1 percent 
of the world's refugees.
    As you noted in your opening remarks, Mr. Chairman, 7 
million refugees have been confined to camps or segregated 
settlements, or have been otherwise deprived of their basic 
human rights, laid out in the 1951 Refugee Convention, for 10 
years or more. They live lives of hopeless dependency, 
dangerous insecurity and endless despair.
    The U.S. Committee for Refugees recommends a renewed 
commitment to ensure that refugees are free to exercise their 
rights in the absence of a durable solution, as specified in 
international law. These rights include the right to work, 
freedom of movement, the right to own property, basic 
education, among others.
    Since USCR began highlighting the warehousing problem with 
the publication of our World Refugee Survey and the rights laid 
out in the Convention, we have had an overwhelmingly positive 
response. Respected academics and the major donor and refugee 
assistance agencies involved in refugee camp management agree 
with us that the warehousing of refugees and the denial of 
basic human rights is wrong both legally and morally. However, 
we have been rightfully challenged by our colleagues to develop 
practical ways of implementing convention rights for refugees 
while they are waiting for permanent solutions.
    As we develop the next steps, we believe it is important to 
listen to refugees like Abraham, a Sudanese refugee, quote, 
``When I arrived in the camp, I thought I would be there for a 
month and then go back home. I arrived when I was 12 years old 
and left when I was 22. We could not travel or work outside the 
camp, so the camp was literally an open-air prison, a storage 
place where they kept human beings. We suffered the most 
mentally. We could not predict when this hardship would end. 
Even prisoners have more rights than refugees. Prisoners know 
exactly what term they are serving. Refugees serve indefinite 
terms in the camp. I thought maybe God did not mean for us to 
live like human beings.''
    We asked Abraham what might help change these warehousing 
conditions and he said, quote, ``Keeping refugees in this 
condition is not smart for the international community or the 
Kenyan government. It increases the burden to support refugees. 
Refugees are not stupid or unproductive. If you give them 
opportunities, they can help reduce the burden on the host 
community.'' Thanks to the U.S. refugee program, Abraham now 
lives in Vermont. Yet, almost 90,000 refugees remain in Kakuma 
Refugee Camp.
    We have also consulted with several host government 
officials in Africa, who responded by noting that if they keep 
refugees in camps, the international community pays attention 
to them and provides them with assistance. If refugees were not 
in camps, they believe donor nations would not help manage the 
situation.
    So what can be done to end warehousing? It is clear that 
the answers are both complex and simple. The complex answer is 
that the UNHCR, the donor community and host governments must 
adopt new policies and devise new practices that prioritize 
refugee rights. We believe it would be enormously helpful if 
the Senate passed a resolution calling for the end of refugee 
warehousing.
    This would be a powerful signal to the world that it is 
time to honor refugee rights.
    Congress could also authorize a pilot program that would, 
one, develop a plan for the strategic use of funding to 
motivate the granting of convention rights to refugees, such as 
reimbursement schemes for expenses incurred by host 
governments; and, two, develop alternative models of assisting 
refugees outside traditional camp settings in a manner 
compatible with the exercise of their rights. Congress could 
also request a report from the Department of State on how 
refugee assistance is or could be used to promote these rights.
    The simple answer in response to Abraham and all the other 
millions of warehoused refugees is that we do believe that God 
does intend for refugees to live like human beings. The simple 
answer is that we must start honoring their rights and stop the 
immoral and illegal practice of warehousing refugees.
    Thank you, I am prepared to answer any questions you may 
have.
    [The prepared statement of Ms. Limon appears as a 
submission for the record.]
    Chairman Chambliss. Thank you very much, Ms. Limon.
    Mr. Kuck, let me start with you. In your testimony, you 
noted how the world has changed from communist versus anti-
communist and become one of religious and ethnic conflict.
    In your opinion, has U.S. refugee policy adapted 
accordingly? And if not, what are your thoughts on the 
direction the U.S. refugee admissions program should take to 
respond to the current geopolitical climate?
    Mr. Kuck. Senator, I think the U.S. refugee policy has 
begun to recognize the difference. I think it took a little bit 
longer than it probably should have to recognize the massive 
changes in this policy.
    Where should we go now is an interesting question. If we 
are going to send a message to our enemies in much the same way 
that we sent a message to our enemies during the Cold War, we 
first identify who those are and then we figure out a way to 
use the refugee program in that regard. I will give the 
Senators an example.
    If there are a number of refugees in countries that are 
being attacked because of their religious faith or because they 
are a particular part of the religious faith, how can we use 
our refugee program to bring them here to let them know that we 
recognize the importance of their religious faith, we recognize 
the importance of their standing up for their religious faith, 
and then use that program to communicate to the rest of the 
world that unless something else is done to help these people 
in their home countries, great and massive disruptions will 
occur?
    Right now in Darfour, there is a great refugee problem. 
That refugee problem is not one of communism or anti-communism.
    It is a problem of really internecine feuding between 
members of the same faith. To date, the international community 
has done nothing.
    The U.S. has taken a bold stand in calling this activity 
genocide, when Secretary Powell told the UN that was the case 
just last week. To date, however, we have not yet moved to help 
those people, we have not yet moved to fund the resettlement of 
those people, and we have not yet sent a message to those 
people through our own refugee program about what we are going 
to do to help them. They remain, as a result, without hope, 
without faith, with a great belief that the world has abandoned 
them.
    That breeds, we hope not to our detriment, people without 
hope, people that are more willing to listen to our enemy's 
message about who we are. I think we can use the refugee 
program in that regard to destroy that message that they are 
trying to send to them.
    Chairman Chambliss. Mr. Franken, I would say that the 
percentage of the American public that has any concept of this 
program is extremely small. So for the record just from a 
practical standpoint, tell me what happens with your 
organization and how you deal with the State Department 
relative to this issue. And, more significantly, what happens 
when you sort of gets your hands on a refugee?
    What is the process that you go through?
    Mr. Franken. One of the hidden treasures, if you will, 
about the resettlement program is that it truly engages members 
of the community who would not otherwise even be thinking 
internationally, globally, refugees or otherwise. Here, they 
are confronted with new arrivals to their community. They bring 
new cultures, new languages, new gifts. Our experience has been 
that the American public that engages individual refugees are 
very open and hospitable toward them, very welcoming as a 
result of that experience.
    Our role is to, in partnership with the State Department 
and Health and Human Services, as refugees are identified and 
approved for admission, locate appropriate sponsorship for them 
in communities around the country. There are about nine NGO 
organizations involved in this and they use their local 
community-based constituency to prepare for that welcome and to 
provide services.
    Our formal role lasts several months after their arrival 
into a community. We provide orientation, we provide assistance 
in obtaining jobs, a language program, getting the children 
connected to schools, and so forth. Then the Office of Refugee 
Resettlement in Health and Human Services has additional 
resources available. Sometimes, they contract with our same 
organizations in the community to provide a bit longer-term 
assimilation and enculturation-type services.
    Senator Kennedy. Could I just ask a quick question?
    Chairman Chambliss. Sure.
    Senator Kennedy. Most of those are religious-based 
organizations, aren't they? There are a number that aren't, but 
an awful lot of them are, aren't they?
    Mr. Franken. I would say five or six are faith-based 
organizations, Senator.
    Senator Kennedy. Yes.
    Chairman Chambliss. You just mentioned something that 
raised another thought in me. In our numbers, in our 50,000 
number, if you have an individual who has a family of, let's 
say, five total, does that five count against that number or is 
it just the one head of the family?
    Mr. Franken. No. It counts as five.
    Chairman Chambliss. Okay.
    Ms. Limon, can you elaborate a little more on the policies 
that you are envisioning developing, as you say, to prioritize 
refugee rights and develop alternative models of assisting 
refugees outside the traditional setting? And what role would 
you see the United States taking in this?
    Ms. Limon. Well, the United States is the leader, 
obviously, internationally in the way that refugees are 
assisted, and provides the bulk of the financing, I believe, to 
do so to the UNHCR, in cooperation with other countries.
    I think that we can look at a lot of different 
possibilities. I have staff around the world talking to local 
government folks, to local NGOs, to academics, to the refugees 
themselves, to the ministries of interior, talking to people 
saying what would it take for you to allow refugees to move 
into the mainstream of your country? What would it take for you 
to allow them to work, to be able to travel within the country, 
to exercise their rights in the Convention?
    We are actually getting--we are very preliminary, we are 
very early on this, but a very interesting read that this is 
not beyond the realm of possibility for people. They do see 
financial problems because they say will the children go to 
school? Who will pay for that? What about if they don't have 
jobs, who is going to take care of them?
    But we think as we look at this, if all the people involved 
in resettling refugees saw the forcible encampment of refugees 
as the last alternative and not the first alternative, there 
are many innovative things to do that would allow refugees to 
support themselves, to support their families, to have a life 
before and while they are waiting for a political solution that 
would allow them to go home.
    Chairman Chambliss. From the comments of all three of you, 
I assume that you would all three support an increase in the 
cap that now exists on refugees. That obviously, as I told Mr. 
Aguirre, puts additional burden on the Department of Homeland 
Security. But what about the NGOs? Are you and your brother and 
sister organizations capable of handling an additional cap of 
any significant number?
    Mr. Franken. The overwhelming response of our communities 
is that it is an underutilized resource out there and we have 
the capacity to assist in the resettlement of considerably more 
refugees than is being anticipated.
    Ms. Limon. I think also that cap, Mr. Chairman, is a real 
hardship on the individuals involved. They wait so long in that 
12-year line and it keeps them from planning for their future. 
It is very important for them to be able to look forward to the 
day that they can become a citizen and really participate fully 
in the society.
    Chairman Chambliss. Just so you will know, Senator Kennedy 
and I have talked about this, particularly after our meeting 
with Secretary Powell recently, that the United States appears 
to be doing more than its fair share. As Secretary Dewey said, 
we had about 54 percent of the refugees settle in the United 
States in the last fiscal year.
    We need to somehow encourage other countries to do a little 
bit better job and do their part to a greater extent. Not that 
we don't need to do more, but we are going to try to work with 
each other to figure out a way to see if we can't make that 
happen. Any input that you all could give us in that respect 
would obviously be very much appreciated.
    Senator Kennedy.
    Senator Kennedy. Thank you very much. Before we leave this 
last point, I welcome the chance of working with the Chairman 
in helping get other countries to do their part. I think we are 
always in a stronger position when we are doing ours, and I 
think you have given us excellent testimony.
    We have both the ceiling and then we have the limitation 
for the cap, and I gather from Mr. Franken that in terms of the 
ceiling on refugees you believe that your organizations are 
institutionally capable of dealing with increased numbers. We 
have been up to 90,000. We have made very important progress 
this year. We have got the limitations in terms of what the 
requests are in terms of funding, but we could certainly go up. 
That is what I am hearing from you.
    Let me get, if I could, to Mr. Kuck. On this statutory 
limitation on asylum, on the adjustment status for clients who 
win their asylum claims, what kind of hardship does that bring?
    Mr. Kuck. It is interesting you should bring that up. I had 
an individual just come in the other day that told an 
interesting story. A husband and wife both were granted asylum. 
Actually, they both came as refugees to the United States and 
they both applied for adjustment of status, but the wife 
applied about a year before the husband, for various financial 
reasons.
    Well, the wife got adjusted very quickly and she is now a 
U.S. citizen. They came with three children, as well. Well, the 
husband has not been able to adjust because he got caught in 
the backlog that currently exists. One of their children is 
going to be turning 18 in about 6 months. Unless the husband 
can get his case actually approved for this cap, or in other 
words get done quickly for his adjustment application and get 
an expedited naturalization, that oldest child will not be able 
to become a U.S. citizen through his parents' naturalization.
    One of the other problems we see--just last week, I won an 
asylum case in the immigration court in Atlanta, and the 
interesting thing about that is as of right now, once a year 
passes from today and that person is eligible to apply for 
adjustment of status, it will not be 12 or 14; it will be 18 
years before they are able to become a permanent resident of 
the United States.
    They won't be able to vote until sometime after that. They 
won't be able to participate in the community. They are subject 
to repatriation at any time during that time. It is a very 
disconcerting position to be in. The cap has real consequences 
on people's lives.
    Senator Kennedy. Well, I appreciate what you say and we 
will try and see what we can do on that. We hear, well, the 
security issues and all the rest. We all agree we have to go 
through whatever and they have to be found qualified in terms 
of the asylum, but to leave them off in this limbo doesn't seem 
to me to make a lot of sense.
    Let me ask you, Mr. Franken, about the drop in the numbers 
coming from Africa this last year. We are going to see a drop 
in terms of this next year. Are you familiar with that?
    According to the proposed admissions, it anticipates 
exceeding the 25,000 refugee ceiling for Africa. We will admit 
28,000. The current ceiling for African admissions is only 
20,000 for 2005, so therefore there is a drop in that. I am 
just wondering if you have a reaction to that.
    Mr. Franken. A couple of things. First of all, I think that 
right after the terrorist attacks of 2001, many of the places 
that African were traditionally processed from posed security 
risk as far as the U.S. Government was concerned. So there was 
an attempt to create conditions that were more hospitable to 
the processing necessary. As far as I know, those extraordinary 
steps have been successful and there are more places available 
in Africa to process refugees. Certainly, the need for 
resettlement in Africa is greater than the numbers in the 
proposal.
    The other thing, I think, that plays into this question is 
if a proposal from the administration calls for 70,000 
authority but 50,000 are allocated to certain regions, there is 
a tendency, I believe, to use that 50,000 as the target, the 
operational kind of management target.
    We saw that this year, and I would hope that we could look 
at the 70,000, at a minimum, to be the target, and in so doing 
I think it would benefit refugees in Africa and others.
    Senator Kennedy. Ms. Limon, let me just ask you about the 
warehousing. One of the programs that we had heard about--and 
we remember the Secretary of the State Department talked about 
their program working through certain countries and trying to 
get some help and assistance to go through those countries, 
with the idea that it is earmarked for these refugees. I guess 
it is a very modest program that has started, but it is along 
the lines that you have said. I would be interested in whether 
you know about it and what your reaction to it is, number one.
    Then, secondly, you mentioned that in talking to some of 
these host countries about getting some of these people out 
there involved and being able to become more involved in the 
community. There are some countries that just won't let these 
refugees out for political reasons. They want that sort of eye-
sore out there in terms of the world community. So we are going 
to have a tough time with that one.
    I think you mentioned the warehousing. I don't know how 
people live under those circumstances and how they can survive. 
What are the possibilities of working through the countries and 
having the money targeted toward getting people more involved 
in terms of the country's life? What are the limitations? And 
should the Europeans be doing a good deal more or these other 
countries be doing more?
    Ms. Limon. We are not naive about the possibility.
    Senator Kennedy. Yes, all right.
    Ms. Limon. It is not like all of a sudden people are going 
to say, oh, gee, we didn't think about it; let's let these 
people go. But there are possibilities and I think the program 
you mentioned is a small step forward.
    Also, we have looked at the Millennium Challenge Account 
and the different criteria within that effort to decide that 
some countries should have more development money, have special 
money out of this Millennium Challenge Account. And we have 
looked at, well, maybe it is possible that we could say the 
restoration of refugee rights should be one of those criteria 
and what would a country need to do that. So we have been in 
conversations with some of those officials.
    We have also looked at the nexus between development monies 
and refugee assistance monies, and there really isn't any 
nexus. It is sort of this is one channel and here is another 
channel.
    Senator Kennedy. Is that the World Bank, or what is that?
    Ms. Limon. The World Bank. We have had conversations with 
the World Bank about this and we are approaching USAID and 
other folks to say is there some way that this can happen. But 
I will tell you it is a longstanding, very entrenched 
separation between assistance and development. But from a host 
country point of view, they are much more interested in the 
development money--it has to do with development of their 
country--than assistance to refugee monies. But somehow if 
those two can be linked in some way that is a win-win for 
everyone, I think we could make a lot of progress.
    Senator Kennedy. Well, I think that is very constructive. 
It seems to me that for some of these countries that aren't 
willing to take the refugees, we ought to have a sense of 
expectation that they pony up in some of these other areas.
    Ms. Limon. That is right.
    Senator Kennedy. I think we ought to see what we can do on 
that. I think Senator Chambliss has mentioned that we are 
interested in trying to work, obviously, with the 
administration, but we would like to work with the groups, as 
well, and with the private sector. If you have ideas or 
suggestions, maybe we can make some difference in some of these 
areas.
    I want to thank you, Mr. Chairman. It was a very 
interesting panel; both panels were very, very helpful.Thank 
you for all your good works. Thanks for your commitment in 
these areas, as well. It is very impressive, and there is an 
enormous need.
    Chairman Chambliss. Thank you, Senator Kennedy.
    We were just talking a little bit earlier. We feel like we 
have been in here all day. Senator Kennedy and I were in here 
all morning on another hearing dealing with the DNA bill, and 
so often we get in contentious hearings in this room and the 
air gets pretty thick. But to have a hearing like this, it is 
very refreshing to us, and particularly to know that there are 
folks like you all who are out there working to make a real 
difference in the world, and particularly a difference for 
citizens of our country.
    America is truly the greatest and freest country in the 
world, in large part because we do have an open hand and extend 
a friendly hand to people around the world. But it is folks 
like you that really make that happen, and so this is one of 
those times when we enjoy having a hearing and enjoy hearing 
the stories and the message that you bring to us today.
    So, again, thank you for the good work you do and thank you 
for being here today.
    Senator Kennedy. Mr. Chairman, could I ask that a statement 
from Senator Leahy be included in the record?
    Chairman Chambliss. Certainly.
    Senator Kennedy. Thank you.
    Chairman Chambliss. The record will remain open for 3 days 
for any other statements to be submitted.
    Thank you very much.
    [Whereupon, at 3:47 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.] 

    [GRAPHIC] [TIFF OMITTED] T6611.001
    
    [GRAPHIC] [TIFF OMITTED] T6611.002
    
    [GRAPHIC] [TIFF OMITTED] T6611.003
    
    [GRAPHIC] [TIFF OMITTED] T6611.004
    
    [GRAPHIC] [TIFF OMITTED] T6611.005
    
    [GRAPHIC] [TIFF OMITTED] T6611.006
    
    [GRAPHIC] [TIFF OMITTED] T6611.007
    
    [GRAPHIC] [TIFF OMITTED] T6611.008
    
    [GRAPHIC] [TIFF OMITTED] T6611.009
    
    [GRAPHIC] [TIFF OMITTED] T6611.010
    
    [GRAPHIC] [TIFF OMITTED] T6611.011
    
    [GRAPHIC] [TIFF OMITTED] T6611.012
    
    [GRAPHIC] [TIFF OMITTED] T6611.013
    
    [GRAPHIC] [TIFF OMITTED] T6611.014
    
    [GRAPHIC] [TIFF OMITTED] T6611.015
    
    [GRAPHIC] [TIFF OMITTED] T6611.016
    
    [GRAPHIC] [TIFF OMITTED] T6611.017
    
    [GRAPHIC] [TIFF OMITTED] T6611.018
    
    [GRAPHIC] [TIFF OMITTED] T6611.019
    
    [GRAPHIC] [TIFF OMITTED] T6611.020
    
    [GRAPHIC] [TIFF OMITTED] T6611.021
    
    [GRAPHIC] [TIFF OMITTED] T6611.022
    
    [GRAPHIC] [TIFF OMITTED] T6611.023
    
    [GRAPHIC] [TIFF OMITTED] T6611.024
    
    [GRAPHIC] [TIFF OMITTED] T6611.025
    
    [GRAPHIC] [TIFF OMITTED] T6611.026
    
    [GRAPHIC] [TIFF OMITTED] T6611.027
    
    [GRAPHIC] [TIFF OMITTED] T6611.028
    
    [GRAPHIC] [TIFF OMITTED] T6611.029
    
    [GRAPHIC] [TIFF OMITTED] T6611.030
    
    [GRAPHIC] [TIFF OMITTED] T6611.031
    
    [GRAPHIC] [TIFF OMITTED] T6611.032
    
    [GRAPHIC] [TIFF OMITTED] T6611.033
    
    [GRAPHIC] [TIFF OMITTED] T6611.034
    
    [GRAPHIC] [TIFF OMITTED] T6611.035
    
    [GRAPHIC] [TIFF OMITTED] T6611.036
    
    [GRAPHIC] [TIFF OMITTED] T6611.037
    
    [GRAPHIC] [TIFF OMITTED] T6611.038
    
    [GRAPHIC] [TIFF OMITTED] T6611.039
    
    [GRAPHIC] [TIFF OMITTED] T6611.040
    
    [GRAPHIC] [TIFF OMITTED] T6611.041
    
    [GRAPHIC] [TIFF OMITTED] T6611.042
    
    [GRAPHIC] [TIFF OMITTED] T6611.043
    
    [GRAPHIC] [TIFF OMITTED] T6611.044
    
    [GRAPHIC] [TIFF OMITTED] T6611.045
    
    [GRAPHIC] [TIFF OMITTED] T6611.046
    
    [GRAPHIC] [TIFF OMITTED] T6611.047
    
    [GRAPHIC] [TIFF OMITTED] T6611.048
    
    [GRAPHIC] [TIFF OMITTED] T6611.049
    
    [GRAPHIC] [TIFF OMITTED] T6611.050
    
    [GRAPHIC] [TIFF OMITTED] T6611.051
    
    [GRAPHIC] [TIFF OMITTED] T6611.052
    
    [GRAPHIC] [TIFF OMITTED] T6611.053
    
    [GRAPHIC] [TIFF OMITTED] T6611.054
    
    [GRAPHIC] [TIFF OMITTED] T6611.055
    
    [GRAPHIC] [TIFF OMITTED] T6611.056
    
    [GRAPHIC] [TIFF OMITTED] T6611.057
    
    [GRAPHIC] [TIFF OMITTED] T6611.058
    
    [GRAPHIC] [TIFF OMITTED] T6611.059
    
                                 <all>

</pre></body></html>
